                                ADVISORY




RECOVERY OVERSIGHT ADVISORY
Indian Loan Guaranty Program




Report No.: RO-C-BIA-066-2011    April 2012
              OFFICE O F
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR

                                                     APR 1 7 2012
Memorandum

To:            RheaS. Suh
               Assistant Secretary, Policy, Management and Budget

Through:       Mary Pletcher
               Department Recovery Act Coordinator

From:          Robert A. Kno~ ~- ~
               Assistant Inspe~tOr General ~· Recbvery Oversight

Subject:       Recovery Oversight Advisory- Indian Loan Guaranty Program
               Report No. RO-C-BIA-066-20 1 I

        This advisory regarding the Indian Loan Guaranty Program is part of our ongoing effort
to oversee and ensure the accountability offunding appropriated to the U.S. Department of the
Interior (DOl) in the American Recovery and Reinvestment Act of 2009 (Recovery Act).

Background

       The Indian Loan Guaranty Program (Program) is executed by the Office of Indian Energy
and Economic Development (OIEED), which reports to the Assistant Secretary- Indian Affairs
(Indian Affairs). The Program helps eli gible boiTowers develop Ind ian businesses by securing
conventional lender financing while helping lenders reduce their risk on the loans they make to
finance these businesses.

        In order to reduce the lender's risk, the Program can guarantee up to 90 percent of the
unpaid principal and accrued interest due on a loan; the lender assumes the remaining 10 percent.
The Program charges the lender a 2 percent premium of the original loan principal to guarantee
the loan. The lender can pass the premium on to the borrower in the fo rm of a one-time payment
or by adding 2 percent to the borrower' s loan.

        The Program receives annual appropriations; OMB then approves a multiplier, which
leverages the appropriated funds by increasing the amount that can be loaned. When a loan is
guaranteed, a portion of the annual appropriation and the 2 percent premi um are deposited in a
specific account held at the Department of the Treasury to cover any defaulted loans. If there are
no defaults, the account is closed out, and any remaining funds go back to the United States
General Account.

      The Recovery Act appropriated $10 million for the Program to guarantee loans to Indi an-
owned business entities, tribes, and business enterprises estab lished and recognized by tribes. Of



                                Recovery Oversight Office I W ash ington, DC
the $10 million, up to 5 percent ($500,000) was allocated for administrative purposes. DOl could
use 10 percent ($50,000) of these funds for its own administrative costs. With the Recovery Act
designated multiplier, the Program could have leveraged its remaining $9.5 million allocation to
guarantee up to $122.8 million in loans.

         During our review, we spoke with Program and Department staff, as well as lending
institutions that received loan guarantees, and visited the facility that had been funded through
the one Recovery Act loan guaranty made through the Program. We also contacted nine lending
institutions that received a loan guaranty in fiscal year (FY) 201 0, including the bank that
received the single Recovery Act loan guaranty. We heard back from six of the nine lending
institutions.

Findings

Failure to Follow Recovery Act Requirements

        We found that only one loan, to the St. Croix Tribe of Chippewa Indians of Wisconsin
(Tribe), for $38,118,000 was guaranteed using $2,946,521 of the Program's Recovery Act funds.
The Heartland Business Bank provided the loan for the Tribe to complete the design and
construction of a 47-room hotel, convention center, and casino. The hotel and convention center
included, among other features, a restaurant, bar, indoor swimming pool, and gift shop. The
Recovery Act loan guaranty covers only the hotel and convention center portion of the project. In
order to comply with section 1604 of the Recovery Act, which prohibits the use of Recovery Act
funds to create gambling establishments, the Tribe kept the casino portion of the project separate
and secured a second, conventional loan through the Heartland Business Bank for $17,500,000 to
complete that part of the project.

        We commend the bank, the Tribe, and the Program for attempting to comply with section
1604 of the Recovery Act. We note, however, that the Program failed to meet all of the criteria in
the section, since the hotel portion of the project included a swimming pool, and section 1604
clearly states that Recovery Act funds may not be used to develop swimming pools. No actual
Recovery Act funds were spent to build the pool; the funds did however guarantee the
construction loan. When we questioned tribal officials about this matter, they indicated that they
were never informed of this Recovery Act requirement. They also told us that the swimming
pool had always been part of the construction plan.

Disincentives for Loans

       The Program received $10 million in Recovery Act appropriations but was only able to
guarantee one loan. While we acknowledge that economic conditions at the time were volatile
and lending institutions were reluctant to lend, we found the Program could have taken more
proactive steps to guarantee additional loans.

      In contrast to the Program, we found that the Small Business Administration (SBA)
Recovery Act loan program was extremely successful. SBA obligated all of its original



                                                                                                    2
$375 million appropriation and was then able to secure an additional $125 million to guarantee
more loans. SBA had a two-pronged approach to administering its Recovery Act funds:

       1. It raised its guaranty rate from the typical 75-85 percent to 90 percent.
       2. It reduced or eliminated the premium charge to originate the loan.

        SBA officials indicated that the reduction or elimination of this charge did provide an
incentive for lenders to loan money again and for borrowers to apply for loans. Moreover, one
lending institution we contacted about the OIEED Program indicated that the premium charge
detracts from the Program's appeal. They stated that many borrowers could not afford the cost.

        We appreciate that the Program already guarantees loans at a 90 percent rate and could
not have increased its loan guaranty rate further, but we do believe that Program officials could
have given greater consideration to decreasing or eliminating the loan origination premium. The
officials told us they had considered reducing or eliminating the charge but decided not to
because OMB had already approved the calculated annual subsidy rate to include the premium,
and they believed they needed additional authority to eliminate the charge. If Program officials
had followed up with OMB and eliminated the fee, they might have created added incentives for
lenders and borrowers. While recalculating the subsidy rate to eliminate the premium charge may
have created an administrative burden, doing so could have increased the effectiveness of the
Program.

        In response to our draft report, OIEED officials noted a concern that our comparison of
the SBA loan program and the Indian Loan Guaranty Program may be misleading. Our intent
was not to show a direct comparison between the two programs. We realize they are different
and are governed by different rules and regulations, but we were highlighting the potential effect
of removing the origination fee to provide an additional incentive for borrowers to seek loans
and for lenders to negotiate loan agreements.

Inadequate Planning

        We also believe that Program officials did not have a sound plan in place for expending
the Program's Recovery Act funds and informing lenders of its potential to guarantee loans.
Program officials told us they had not changed their business practices to accommodate the
influx of Recovery Act funds. Of the six lending institutions we contacted, two were unaware
that the Program had received Recovery Act funds, were never contacted by the Program
regarding these funds, and did not know they were eligible to receive a guaranty on a loan.

       In addition, Program staff could not provide us with a spending plan and budget for the
administrative funds the Program received. One staff member indicated that a draft plan and
budget had been created but was never published or approved. We were told that the Program
used the administrative funds to pay two employees' salaries and other expenses, including travel
charges, phone charges, training, printing, and miscellaneous expenses. According to
documentation we received from Program officials, the Program only expended $231 ,314, or
about 50 percent, of its allocated administrative budget.




                                                                                                  3
        As a result of only one loan being secured under the Program, on August I 0, 2010,
Congress rescinded $6,820,000 of the Program's unobligated funding. Program officials a lso
speculated that their annual appropriation was dramatically scaled back for FY 20 12 because
they were unable to expend most of their Recovery Act funding (see figure I ). OMB officials
verified this speculation.

       $10,000,000                                                 $8,215,000   $8,215,000

        $8,000,000

        $6,000,000

        $4,000,000

        $2,000,000


                        2007           2008           2009           2010         2011         2012


Figure I: Annual Fiscal Year Appropriations for Indian Loan Guaranty Program


       In response to our draft report, OIEED officials noted that they did have a plan in place to
expend the Program funding. They participated in the deve lopment of the Department's
Recovery and Implementation Plans, which helped guide their efforts to implement the Recovery
Act. They also designated two employees to work on the Recovery Act efforts by attending
seminars and workshops, among other events, to help publicize the program. T he Program also
worked w ith Bureau of Indian Affairs officials on both a Regional and Agency level to
communicate their ability to guarantee more loans under the Recovery Act. In addition to this,
they developed a Recovery Act Loan Guarantee flyer that was distributed at meetings, via
conventional mail ing, and to the Program' s regional Zone Managers as well as other Program
employees. While we appreciate their efforts to publicize the Progran1, the fact remains that only
one loan was guaranteed with Recovery Act funding and $6,820,000 of Recovery Act funds were
rescinded.

Inaccurate Reporting on Recove1y Act Projects

         The U.S Department of the Interior American Recove1y and Reinvestment Act Plan'
(August 201 0), found on DOl ' s Recovery Act Web site, notes the number of Program loans
guaranteed in FYs 2009 and 20 10. The Plan implies that the Program guaranteed 26 loans in FY
2009 and 7 during the first half of FY 20 I 0 under the Recovery Act. Program officials, however,
indicated to us that they included all loans guaranteed in FYs 2009 and 20 10, regardless of
funding source. Since this is a Recovery Act plan, readers will likely assume that the information
in it refers only to Recovery Act funding. It does not, so the information in the Plan is
misleading.




1
 See lin k:
http://www.recovcry.gov/Transparcncy/agcncy/ Rccovcry%20Plans/Rcviscd%20DO I% 20Rccovcry%20/\ci%20Pi an%20-
%20June%2020 IO.pdf

                                                                                                              4
      The Recovery.gov Web site reports that $2,946,521 of Recovery Act funds were
expended by the Program to support the one loan that was guaranteed for $38,118,000, but the
Program did not report on its $231 ,314 in administrative costs.

        We contacted officials at the Department who noted that the Program, being administered
by Indian Affairs, was arranged in such a manner that the administrative portions of the
Program's funds were provided via a reimbursable agreement from the Guaranteed Loan
Account (14-2629) to the Office ofthe Secretary Salaries and Expenses account (14-0101). The
Department official noted that it is virtually impossible to trace the administrative portion of the
Program's budget, given the way reimbursable funding was reported throughout the
Government. In reviewing the Recovery Act Financial Activity Report, downloaded from
Recovery.gov, we disagree with this comment. The Financial Activity Report shows total
obligations of$249,768 under the Salaries and Expenses Account (14-0101) for the Program.
This figure is different from the $231 ,314 figure that Program officials indicated was spent on
administration. We asked officials at Indian Affairs to reconcile the $249,7 68 from the Financial
Activity Report with the $231, 314, but they were unable to do so. An official told us that the
$231,314 figure was in fact the correct amount obligated and spent on administering the
Program.

Administrative Burden of the Loan Application

        According to its Web site, the Program is designed to help finance both small and large
loans for businesses. Of the six lending institutions we contacted, however, four stated that they
were not willing to make smaller loans because they considered them unprofitable and the
paperwork to be too burdensome. In order to make the process profitable and less cumbersome
for lenders, the lending institutions suggested that the Program make the following changes:

       1. Require less documentation for small loans.
       2. Streamline the process for experienced lenders by letting them underwrite the loan
          internally.
       3. Create preapproval documents for small ticket loans.
       4. Create an online application and approval tool with a scorecard system for approving
          or denying the application.

Administrative Support Costs

       We contacted officials at both the Program and bureau levels to understand whether
10 percent of the $500,000 in administrative funds had been transferred to DOl per the American
Recovery and Reinvestment Act Administrative Support Cost Guidelines- Version 1.2 (figure 2).
Neither Program nor bureau officials could provide us with sufficient answers or documentation
regarding the matter. We were therefore unable to trace and verify what happened to the $50,000
in administrative support costs and whether the amount was ever actually transferred to DOL




                                                                                                     5
                             Disposition of Funds               Amount
                     Loan Guaranty                              $2,946,521
                     Rescission                                 $6,820,000
                     Administrative Costs                         $231,314
                     DOl Administrative Costs                      $50,000
                     Total                                    $10,047,835

Figure 2: Disposition of Program Funds.


        In response to our draft report, a senior official at the Department confirmed that Indian
Affairs did not transfer $50,000 to the Working Capital Fund out of Recovery Act Loan
Guaranty appropriations. Instead, all Indian Affairs Recovery Act oversight costs were paid out
of the Recovery Act construction account via a reimbursable agreement with the Department.
This alleviates our concern that the Program exceeded its authorized funding.

Recommendations

We recommend that the OIEED Director:

    1. Restructure the loan guaranty document related to the agreement between the St. Croix
       Tribe of Chippewa Indians and Heartland Business Bank to omit the swimming pool.

    2. Implement a more active outreach effort to encourage more lenders to participate in the
       Program.

    3. Amend the August 2010 U.S. Department of the Interior American Recovery and
       Reinvestment Act Plan to show that only one loan was guaranteed under the Recovery
       Act.

    4. Reconcile the $249,768 figure from the Financial Activity Report with the $231 ,314
       figure that the Program indicated was spent on administration.

    5. Create a preapproval document for loans below a certain threshold to streamline the
       process for applying for a small loan guaranty.

        In response to our draft report, we note that 0 IEED concurs with recommendations 1, 2,
3, and 5 and is taking action to implement those recommendations.

        Please provide a written response to this advisory within 30 days of receipt detailing the
corrective actions DOl will implement to meet our recommendations, as well as targeted
completion dates and title(s) of the official(s) responsible for implementation. We will post this
advisory on our Web site (www.doioig.gov/recovery/) and on Recovery.gov. Information
contained in this advisory may also be included in our semiannual reports to Congress. We
performed our work in accordance with the applicable Quality Standards for Inspection and
Evaluation adopted by the Council of the Inspectors General on Integrity and Efficiency. Please
contact me if you have any questions.


                                                                                                     6
cc:   Deputy Secretary, U.S. Department of the Interior
      Assistant Secretary - Indian Affairs
      Director, Office of Executive Secretariat and Regulatory Affairs
      Director, Office of Acquisition and Property Management
      Acting Director, Office of Financial Management
      Director, Office of Indian Energy and Economic Development
      Departmental GAO/ OIG Audit Liaison
      Audit Liaison, Office of the Secretary
      Audit Liaison, Indian Affairs
      Recovery Coordinator, Indian Affairs




                                                                         7
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
